January 18, 2011

WILLIAM J. SCHNAARS
DISTRICT MANAGER, NEW YORK DISTRICT

SUBJECT:           Audit Report – City Delivery Efficiency Review – New York District
                   (Report Number DR-AR-11-002)

This report presents the results of our City Delivery Efficiency Review – New York District1
(Project Number 10XG049DR000). Our objectives were to assess overall efficiency of city
delivery operations and identify opportunities to reduce operating costs within the New York
District. This self-initiated audit addresses operational risk and is fifth in a series being
conducted by the U.S. Postal Service Office of Inspector General (OIG). See Appendix A
for additional information about this audit.

The U.S. Postal Service is delivering fewer pieces of mail to a growing number of
addresses as new households and businesses are added to the delivery network each
year. The Postal Service must achieve unprecedented levels of efficiency to accommodate
this new growth while facing financial losses from declining mail volumes and rising costs.

Conclusion

The New York District has opportunities for enhanced delivery efficiency and reduced
workhour costs. Our benchmarking comparison determined the New York District’s percent
to standard measurement2 was127.05 or 21.1 percentage points above the national
average of 105.95 percent. In other words, the New York District used approximately
37 minutes more per carrier route than the average carrier route in the nation. However,
because of unique delivery issues specific to the New York District, we concluded it could
reduce at least 25 minutes3 daily on each carrier route.




1
  The New York District is one of 11 districts in the Northeast Area. It consists of 66 city delivery units that deliver mail on
2,224 city routes with more than 1,374,859 delivery points.
2
  The percent to standard measurement is a measure of carrier office workhour performance in relation to mail volume
and delivery points. A figure of 100 percent indicates the office performed at the stated performance goal. A figure greater
than 100 percent indicates performance is less than the desired standard.
3
  Because of the amount of walking routes, high-rise buildings and bundling of Delivery Point Sequence (DPS) for relay
boxes in the New York District, the eFlash fixed office time used in our analysis was not fully representative. Therefore,
we adjusted the minutes that could be saved to 25 minutes based on observations and discussions with New York District
personnel.
City Delivery Efficiency Review –                                                                           DR-AR-11-002
 New York District


Operation Efficiency

Although numerous factors were involved, our review of 24 randomly selected delivery
units determined that New York District management did not always (1) provide sufficient
review and oversight of units’ office operating efficiencies, and (2) coordinate with mail
processing facilities to ensure mail was received timely and in a condition that promoted
office operating efficiency. We also identified a local labor/management issue regarding
time allowed for afternoon wash-up4 that also impacts operating efficiency in the New York
District.

Elimination of time-wasting practices and increased focus on efficiency could allow
management to reduce workhours. Some examples include ensuring that:

Units receive the correct mail mix and in the proper condition from the processing facilities
based on an effective integrated operating plan (IOP) to facilitate that:

        Mail is available so carriers do not have to wait for mail before departing for street
         operations.
        Delivery Point Sequence (DPS5) mail is in the condition to facilitate efficient
         operation.
        Carriers do not unnecessarily handle DPS mail.
        Management discusses office expectations with carriers.

Additionally, reducing the time allowed for afternoon wash-up for carriers presents a future
opportunity for increased efficiency. See Appendix B for our detailed analysis of this topic.

Consequently, the New York District used more workhours than necessary to deliver the
mail. Reducing 279,853 workhours would increase the New York District’s overall
efficiency, resulting in savings of approximately $9.3 million annually, or more than $93
million over 10 years. See Appendix C for additional information about the monetary
impact.

We recommend the district manager, New York District:

1. Reduce the New York District’s workhours by 279,853 to achieve an associated
   economic impact of more than $9.3 million annually, or in excess of $93 million over
   10 years.




4
  Wash up time is “time spent by employees changing clothes and/or washing up after their tour ends.”
5
  A process for sorting bar-coded letter mail at the processing plants and delivery units into the carrier’s line-of-travel. Mail
is taken directly to the street, with no casing time in the office.




                                                                2
City Delivery Efficiency Review –                                            DR-AR-11-002
 New York District



2. Require processing facility managers and delivery managers to regularly coordinate,
   review, and update all integrated operating plans to ensure mail arrives timely and in the
   condition necessary to promote office efficiency.

3. Reinforce Postal Service policy and procedures for supervising city delivery office
   operations in delivery units and eliminate inefficient practices as appropriate.

Management’s Comments

Management agreed with the findings, recommendations, and opportunities to capture
monetary impact.

In response to recommendation one, management plans to achieve and maintain the
savings by capturing the opportunity outlined in their fiscal year (FY) 2011 Business Plan.
Management stated they were taking action in several areas to promote greater efficiency
with the goal of achieving the FY 2011 Delivery Service budget. Initiatives include savings
from the Joint Alternate Route Adjustment Process and Modified Interim Alternate Route
Adjustment Process, consolidations/reductions, increases in the Delivery Point Sequence
percentage and improvement of the office percent to standard. Management stated they
will continue to monitor station performance and monitor productivity to work toward making
incremental improvement to sustain these savings. Management stated that these
initiatives will be fully implemented by September 2011.

Management responded to our second recommendation stating the New York District will
review all IOPs. Further, management will continue the weekly IOP meetings with station
and In Plant Support to identify and resolve mail issues and update IOPs to promote
efficiency. Also, management plans to relocate and reconfigure mail processing equipment
to increasing plant processing capacity. Management plans to implement action by January
2011.

Management responded to our third recommendation stating that supervisors should
counsel employees on good performance and areas of improvement. Management stated
during the course of the audit, the New York District instituted refresher training for all
supervisors addressing standard operating procedures and service. On December 1, 2010,
the New York District began the Morning (AM) Standard Operation Procedures II
recertification process which addresses the findings in the report. Management indicated
their actions were ongoing daily activities with no end date. See Appendix D for
management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrections actions should resolve the issues identified in the report.




                                              3
City Delivery Efficiency Review –                                             DR-AR-11-002
 New York District


The OIG considers recommendation 1 significant, and therefore, requires OIG concurrence
before closure. Consequently, the OIG requests written confirmation when corrective action
is completed. This recommendation should not be closed in the Postal Service’s follow-up
tracking system until the OIG provides written confirmation that the recommendation can be
closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, director, Delivery or
me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 For Mission Operations

Attachments

cc: Megan J. Brennan
    Steve J. Forte
    Dean J. Granholm
    Elizabeth A. Schaefer
    Phillip F. Knoll
    Corporate Audit and Response Management




                                              4
City Delivery Efficiency Review –                                                                       DR-AR-11-002
 New York District


                               APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Delivery operations is the Postal Service’s largest operational function, accounting for
approximately 45 percent of salary expenses and workhours. Although delivery operations
used fewer workhours in FY 2010, workhour reduction has not kept pace with declining
mail volume. Nationally, mail volume declined by 10.7 percent in FY 2010. During this
same period, mail volume declined in the Northeast Area by 8.6 percent while workhours
declined by 3.1 percent. The New York District mail volume declined by 6.3 percent in
FY 2010, while workhours declined by 3.1 percent. However, the New York District did lead
the Northeast Area during FY 2010 with total workhour reductions from FY 2009 of 186,498
including 85,689 in delivery operations.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to assess overall efficiency of city delivery operations and identify
opportunities to reduce operating costs within the New York District. To accomplish our
objectives, we:

    Ranked the eight Postal Service areas from highest to lowest in terms of percent to
     standard from July 1, 2009, through June 30, 2010. We used the eFlash6 national
     percent to standard measurement of 105.95 percent for July 1, 2009, through June 30,
     2010, as a baseline guide.

    Our benchmarking comparison of eFlash data determined the New York District’s
     percent to standard measurement was 21.1 percent higher than the national average
     (127.05 percent compared with the national average of 105.95 percent). In other
     words, according to eFlash data, routes in the New York District used approximately
     367 minutes more than the average route in the nation. However, because of unique
     delivery issues on many routes in the New York District,8 the standard measurement of
     eFlash with a fixed office time9 was not fully representative.

    Judgmentally selected the Northeast Area and, within that area, the New York District
     for review.


6
  A weekly operating reporting management system that combines data from delivery, mail processing, employee
relations, labor relations, and finance. The information is extracted from various host systems and loaded into eFlash.
7
  24,569,100 minutes (408,485 hours above the national average percent to standard multiplied by 60 minutes per hour)
divided by 2,224 routes in the New York District divided by 302 annual delivery days equals approximately 36.49 minutes
per route per day.
8
  The New York District contains a significant number of walking routes and high-rise buildings, and as a result the DPS
mail needs to be handled in the office and brought to the carrier’s case to be bundled and sorted for relay boxes, incurring
additional fixed office time.
9
  Fixed office time in eFlash is 38 minutes per route. The average fixed office time in the New York District is more than 60
minutes per route, which because of walking routes and high-rise buildings, includes additional time for handling and
bundling DPS for relay boxes, not accounted for in eFlash.




                                                             5
City Delivery Efficiency Review –                                                DR-AR-11-002
 New York District


       Randomly selected 24 delivery units within the New York District for review.

At the selected delivery units, we:

       Obtained, reviewed, and analyzed delivery unit data related to office operations.

       Conducted interviews on-site and obtained information on carrier operations, unit
        operations, processes, and procedures.

 Conducted            physical observation of office delivery operations.

       Reviewed documentation and applicable policies and procedures for city delivery and
        Postal Service Handbooks M-3910 and M-41.11

We conducted this performance audit from August 2010 through January 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management on December 16, 2010, and included their comments
where appropriate.

We relied on data obtained from Postal Service database systems, such as Delivery
Operations Information System (DOIS) and eFlash. We did not directly audit the systems
but performed limited data integrity review to support our data reliance. We assessed the
reliability of delivery point data by reviewing existing information about the data and the
systems that produced them, as well as interviewing agency officials knowledgeable about
the data. We determined that the data were sufficiently reliable for the purposes of this
report.




10
     Management of Delivery Services, March 1998.
11
     City Delivery Carriers Duties and Responsibilities, March 1998.




                                                               6
     City Delivery Efficiency Review –                                                DR-AR-11-002
      New York District


     PRIOR AUDIT COVERAGE

     The OIG identified four audits related to our objective that were issued over the past 3
     years:

                                           Final
                           Report                        Monetary
   Report Title                           Report                                  Report Results
                           Number                         Impact
                                            Date
City Delivery          DR-AR-10-009      9/24/2010       $27,374,309   The Atlanta District was not operating
Efficiency                                                             at peak efficiency and could reduce
Review-Atlanta                                                         city delivery operating costs. Our
District                                                               benchmarking comparison determined
                                                                       the Atlanta District used
                                                                       approximately 9 minutes more per day
                                                                       than the national average for each
                                                                       carrier route, compared to the
                                                                       standard for that route. The
                                                                       measurement for this factor, called
                                                                       percent to standard, was 111.18,
                                                                       about 5 percentage points above the
                                                                       national average of 106.49 percent.
                                                                       Management agreed with the findings,
                                                                       recommendations, and monetary
                                                                       impact.
City Delivery          DR-AR-10-007      8/26/2010       $79,016,988   The Bay-Valley District was not
Efficiency                                                             operating at peak efficiency and could
Review-Bay                                                             reduce city delivery operating costs.
Valley District                                                        Our benchmarking comparison
                                                                       determined the Bay-Valley District
                                                                       used approximately 13 minutes more
                                                                       per day than the national average for
                                                                       each carrier route, compared to the
                                                                       standard for that route. The
                                                                       measurement for this, called percent
                                                                       to standard, was 115.93, 9
                                                                       percentage points above the national
                                                                       average of 106.49. Management
                                                                       agreed with the findings,
                                                                       recommendations, and monetary
                                                                       impact.




                                                     7
    City Delivery Efficiency Review –                                                 DR-AR-11-002
     New York District


                                           Final
                          Report                         Monetary
  Report Title                            Report                                  Report Results
                          Number                          Impact
                                           Date
City Delivery         DR-AR-10-006       7/1/2010    $105,056,064      The Los Angeles District was not
Efficiency                                                             operating at peak efficiency and could
Review-Los                                                             save workhours and reduce city
Angeles District                                                       delivery operating costs. Our
                                                                       benchmarking comparison determined
                                                                       the Los Angeles District used
                                                                       approximately 26 minutes more per
                                                                       day than the national average for
                                                                       each carrier route, as compared to the
                                                                       standard for that route. The
                                                                       measurement for this, called “percent
                                                                       to standard” was 124.17 - about 17
                                                                       percentage points above the national
                                                                       average of 107.19 percent.
                                                                       Management agreed with the findings,
                                                                       recommendations, and monetary
                                                                       impact.
City Delivery         DR-AR-10-002      12/18/2009       $21,308,433   The audit concluded the Napoleon
Efficiency Review                                                      Street Station was not operating at
– San Francisco                                                        peak efficiency, and management
Napoleon Street                                                        could reduce city delivery costs. Our
Station                                                                benchmarking comparison of five
                                                                       similar delivery units showed this
                                                                       station used 54,975 more workhours
                                                                       than necessary. We also found
                                                                       management did not adjust workhours
                                                                       to the changes in workload.
                                                                       Management agreed with our findings
                                                                       and recommendations to correct the
                                                                       issues identified.




                                                     8
City Delivery Efficiency Review –                                                                        DR-AR-11-002
 New York District


                                    APPENDIX B: DETAILED ANALYSIS

Operation Efficiency

We determined the New York District could use 279,853 fewer workhours. Through
analysis of performance data, observations, and discussions with unit and district
personnel, we identified the New York District could use at least 2512 minutes less per day
on each carrier route. This condition existed, because management did not always
(1) provide sufficient review and oversight of units’ office operating efficiencies, and
(2) coordinate with the mail processing facility to ensure mail was timely received and in the
condition necessary to promote office operating efficiency.

Mail Arrival and Condition

The arrival and condition of mail from the processing facilities for 20 of 24 delivery units
reviewed did not facilitate an efficient morning operation. Specifically, mail was not always
available for carriers, and DPS mail was not consistently staged for easy retrieval by the
carriers. These issues existed primarily because of inadequate and/or outdated IOPs.13
Most units had IOPs dated from 2005 that require updating to reflect current mail flows and
provide a more detailed mail mix. When mail arrives at the delivery unit later than expected
or not in the agreed upon mail mixture, carriers are delayed in the office. The IOP is
designed to help stabilize mail flows and is critical in establishing appropriate staffing and
reporting times to ensure carriers are not delayed. Although the district encourages delivery
units to report issues to the plant, mail flow issues often remain unresolved. Issues
observed include:

    Mail was not always available and distributed to carriers in a timely manner, causing
     carriers to wait sometimes in excess of 30 minutes. This occurred because mail did not
     always arrive from the plant in the proper mixture or condition, which impacted the
     clerk’s availability to timely process and finalize “hot case” mail.14 In some instances,
     carriers had to wait for accountable items before departing to the street because clerks
     were still working letter mail or small parcels. (See Illustration 1.)




12
   Computation was based on 16,791,180 minutes (279,853 hours multiplied by 60 minutes per hour) divided by 2,224
routes in the New York District divided by 302 annual delivery days equals approximately 25 minutes per route per day.
13
   The IOP contract covers mail arrival from the plant and identifies the product of mail agreed for each individual trip. The
primary purpose is to stabilize mail flow (for example, arrival time of DPS, auto letters, and auto flats), based on other
requirements for mail arrival such as the mail mix/unit distribution percentage.
14
   Hot case mail is a special distribution case in a delivery unit for last-minute sorting of First-Class Mail®. The letter
carrier collects this mail before leaving the office for street duties.




                                                              9
City Delivery Efficiency Review –                                                              DR-AR-11-002
 New York District


              Illustration 1: Carriers Waiting in Line to Retrieve Accountables




                       Source: OIG


        In others instances, we observed carriers having to assist in the distribution of mail
        to speed their departure to the street. (See Illustration 2.)

                   Illustration 2: Carrier Assisting in the Distribution of Mail




                       Source: OIG

     Postal Service policy15 states that accountable items must be available for carriers in a
     timely manner so as not to delay the carrier. Using a mobile accountable cart
     operation16 could minimize carrier time related to accountable operations if facility space
     is available.

    DPS letters processed by the plants arrived in mail transport containers that are not
     staged for easy retrieval at 23 of the 24 delivery units. This requires clerks — and

15
   Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (SOP) II Guidebook,
2007, Section 3-1.
16
   Clerks use accountable carts to transport items from the accountable cage to the carriers.




                                                        10
City Delivery Efficiency Review –                                                                           DR-AR-11-002
 New York District


     sometimes carriers — to unload and sort DPS mail by route, which delays carriers
     unnecessarily. Postal Service policy17 states that mail processing should stage DPS
     letters for transport in shelved or modified containers so that individual trays do not have
     to be re-handled at the delivery unit. (See illustrations 3 and 4.)

Illustration 3: DPS Mail not                                 Illustration 4: Clerk Sorting DPS Mail by
Staged by Route Illustration                                 Route




Source: OIG


We are aware of space limitations18 with both the facilities and the transportation that serve
them which hinder the use of shelved containers; however, the New York District could still
stage the mail by route order using the current equipment.

Carriers Handling DPS Mail

Carriers often handled and verified 100 percent of DPS mail using at least 30 minutes or
more daily per route. Although the New York District’s policy allows carriers to verify each
piece of DPS mail on all routes if the out of sequence rate from the plant is 50 percent or
greater, carriers often performed 100-percent verification of each piece of DPS mail instead
of riffling,19 regardless of the out of sequence rate. This occurred because of the perception
in delivery units that capturing missent errors from DPS mail for customer service was the
number one priority in the morning. Carriers were instructed to identify DPS errors as the
first task before casing any flats and letters. If this practice of verifying 100 percent DPS
mail each morning was not done, the New York District could further reduce morning
workhours. (See Illustrations 5 and 6.)




17
   Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (SOP) II Guidebook,
2007, Section 2-6.
18
   Many units have limited floor plans that would inhibit the staging of shelved containers in all delivery units. In addition,
many older and limited spaced delivery units served by smaller transport vehicles would be unable to accommodate the
space requirements of additional containers.
19
   To flick through the front, middle, and back of DPS trays to glance for errors.




                                                               11
City Delivery Efficiency Review –                                                DR-AR-11-002
 New York District


Illustrations 5 and 6: Carriers Handling Each Piece of DPS Mail on Certified Routes




Source: OIG


Setting Office Expectations

Supervisors did not always set expectations for morning office operations nor review
previous day performance with carriers. For example, supervisors often printed the DOIS
Route Carrier Daily Performance Report, but did not always discuss the report with carriers
in 23 of the 24 delivery units observed. If a carrier does not meet performance standards, a
supervisor must investigate and discuss performance deficiencies with the carrier.

By reviewing workhour and workload utilization and improving oversight of office
processes, management would increase the New York District efficiency, thereby saving
approximately $9.3 million annually, or more than $93 million over 10 years. (See Appendix
C.)

During the audit, management began to reexamine procedures and institute training. For
example, the New York District is starting the AM Standard Operation Procedures
Recertification Process in delivery units and instituting refresher training for all supervisors
regarding standard operating procedures and service.




                                               12
City Delivery Efficiency Review –                                                                    DR-AR-11-002
 New York District


                                    APPENDIX C: MONETARY IMPACT

                     Finding                         Impact Category                        Amount
                Operating Efficiency              Funds Put to Better Use20                 $93,143,986

We estimated the monetary impact of $93,143,986 in funds put to better use by reducing
279,853 workhours at delivery units in the New York District. This amount included an
estimated cost savings of $88,614,716 from reducing city letter carrier positions over 10
years and $4,529,269 in reduction of delivery office overtime workhours over 2 years (See
Table 1.)

                       Table 1. New York District Station Workhour Savings
                                                              10-Year               2-Year
                                         Estimated
                                                           Projection of         Projection of
                                            City                                                        Estimated
                          Delivery                         Savings from          Savings from
         District                         Delivery                                                        Total
                           Units                            Full FTEs            Partial FTEs
                                         Workhours                                                       Savings
                                                            Workhour               Overtime
                                          Saved21
                                                            Reduction             Workhours
     New York                 66              279,853        $88,614,716            $4,529,269          $93,143,986
 Source: OIG

       We calculated funds put to better use of full-time equivalents (FTEs) over 10 years
        using the FY 2011 city carrier level 2 fully loaded labor rate with an escalation factor of
        1.7 percent.

       To determine the reduction of city carrier FTE positions, we used a cash flow analysis
        based on city carrier complement and attrition from Webcoins Information for July 1,
        2005, through June 30, 2010. We used this to determine how many city letter carriers
        are estimated to leave in future years.

       We used the discount rate of 3.875 percent based on the Postal Service’s Decision
        Analysis Report Factors (cost of borrowing rate).

       We calculated funds put to better use for reducing city carrier workhours not
        equivalent to a FTE using the city carrier overtime rate for FY 2011 with an escalation
        factor of 1.7 percent for the 2-year projection.




20
  Funds that could be used more efficiently by implementing recommended actions.
21
  The reduction of these hours results in a projected FTE reduction of 125 positions over 10 years and a reduction of
61,103 overtime workhours over 2 years.




                                                           13
City Delivery Efficiency Review –                              DR-AR-11-002
 New York District


                           APPENDIX D: MANAGEMENT’S COMMENTS




                                          14
&LW\'HOLYHU\(IILFLHQF\5HYLHZ±               '5$5
1HZ<RUN'LVWULFW





                                                                    



                                          
